                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




      REVIEW OF BANK STREET COLLEGE OF
        EDUCATION’S JUSTIFICATION FOR
    COMPELLING PERSONAL CIRCUMSTANCES OF
           AN AMERICORPS MEMBER

                      OIG REPORT 08-16




                 1201 New York Avenue, NW,
                          Suite 830
                   Washington, DC 20525
                  Telephone (202) 606-9390
                  Facsimile (202) 606-9397




This report was issued to Corporation management on April 16, 2008. The
Corporation’s response to the draft report agreed with the recommendations and
is considered to be the Management Decision. Under the laws and regulations
governing audit follow-up, the Corporation is to complete its corrective actions by
April 16, 2009. Consequently, the reported finding does not necessarily represent the
final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                         April 16, 2008



TO:            Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Carol Bates /s/
               Assistant Inspector General for Audit

SUBJECT:       Office of Inspector General Report 08-16, Review of Bank Street College of
               Education’s Justification for Compelling Personal Circumstances of an
               AmeriCorps Member

Attached is the final report on our Review of Bank Street College of Education’s Justification
for Compelling Personal Circumstances of an AmeriCorps Member.

Under the Corporation’s audit resolution policy, the notice of final action is due by April 16,
2009.

If you have questions pertaining to the final report, please contact Jim Elmore, Audit
Manager, at (202) 606-9354 or j.elmore@cncsoig.gov.


Attachment

cc:   Kristin McSwain, Director, AmeriCorps*State and National
      William Anderson, Deputy Chief Financial Officer,
          Financial Management
      Rocco Gaudio, Deputy Chief Financial Officer,
          Grants and Field Financial Management
      Sherry Blue, Audit Resolution Coordinator
      Mark Walter, Executive Director, New York State
          Commission on National and Community Service




                       1201 New York Avenue, NW Suite 830, Washington, DC 20525
                          202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
                       Senior Corps   AmeriCorps   Learn and Serve America
                          Senior Corps   AmeriCorps    Learn and Serve America
                   Review of Bank Street College of Education’s Justification for
                  Compelling Personal Circumstances of an AmeriCorps Member


                                                      Table of Contents




EXECUTIVE SUMMARY ............................................................................................................ 1

METHODOLOGY, OBJECTIVE, AND SCOPE.......................................................................... 1

CRITERIA ................................................................................................................................... 1

FINDING AND RECOMMENDATIONS ...................................................................................... 3

EXIT CONFERENCE .................................................................................................................. 4

COMMISSION RESPONSE........................................................................................................ 4

CORPORATION RESPONSE .................................................................................................... 4

OIG COMMENT .......................................................................................................................... 4


Appendices:

A: New York State Commission on National and Community Service’s
   Response to the Draft Report

B: Corporation for National and Community Service’s Response to the
   Draft Report




                                                                    i
EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), reviewed the justification for compelling personal circumstances for an
AmeriCorps member who served at the Bank Street College of Education (Bank Street). We
found that the justification for compelling personal circumstances, which allowed a
$1,275.75 partial education award, does not meet the requirements of 45 C.F.R. §
2522.230(a)(5). We recommend the Corporation disallow and recoup the partial education
award and revise the AmeriCorps member’s official records to show that the member was
released for cause. The Corporation and the New York State Commission on National and
Community Service (Commission) agreed with the recommendations.


METHODOLOGY, OBJECTIVE, AND SCOPE

We performed a limited review of the justification for compelling personal circumstances for
an AmeriCorps member. Bank Street is a subgrantee of the Commission.

This limited review was not planned for fiscal year 2008 and came about as a result of OIG
research in the Web-Based Reporting System (WBRS). On November 8, 2007, we
observed in WBRS a justification for an AmeriCorps member’s compelling personal
circumstances that appeared to be deficient. We performed additional procedures that
showed Bank Street approved the compelling personal circumstances, which authorized the
Corporation to pay a prorated education award on behalf of the member who served in
Program Year 2006 - 2007 under the only subgrant 06ESHNY0010001.

The objective of our review was to determine whether the justification for compelling
personal circumstances approved by Bank Street was consistent with 45 C.F.R. §2522.230.
We conducted our review in November 2007. Methodology included discussions, through
telephone and e-mail, with personnel from the Corporation, Commission, and Bank Street,
as well as reviews of WBRS, eSPAN, Bank Street correspondence, Corporation
Regulations, and AmeriCorps Provisions. We did not look at original records at Bank Street
or otherwise verify whether data and information in WBRS and eSPAN were correct.

We reviewed information in WBRS and found only one subgrant and no other instances in
which Bank Street approved compelling personal circumstances. Accordingly, the scope of
this report is limited to Bank Street and the single instance of approved compelling personal
circumstances that we identified under subgrant 06ESHNY0010001 for Program Year
2006 - 2007.

Our review was conducted in accordance with Quality Standards for Inspections (January
2005) issued by the President’s Council on Integrity and Efficiency.


CRITERIA

Title 45 C.F.R. §2522.230, Under what circumstances may AmeriCorps participants be
released from completing a term of service, and what are the consequences?, states, in
part:
An AmeriCorps program may release a participant from completing a term of
service for compelling personal circumstances as demonstrated by the
participant, or for cause.
    (a) Release for compelling personal circumstances.
    (1) An AmeriCorps program may release a participant upon a
          determination by the program, consistent with the criteria listed in
          paragraphs (a)(5) through (a)(6) of this section, that the participant
          is unable to complete the term of service because of compelling
          personal circumstances.
    (2) A participant who is released for compelling personal circumstances
          and who completes at least 15 percent of the required term of
          service is eligible for a pro-rated education award.
    (3) The participant has the primary responsibility for demonstrating that
          compelling personal circumstances prevent the participant from
          completing the term of service.
    (4) The program must document the basis for any determination that
          compelling personal circumstances prevent a participant from
          completing a term of service.
    (5) Compelling personal circumstances include:
    (i)   Those that are beyond the participant’s controls, such as, but not
          limited to:
    (A) A participant’s disability or serous illness;
    (B) Disability, serious illness, or death of a participant’s family member if
          this makes completing a term unreasonably difficult or impossible;
          or
    (C) Conditions attributable to the program or otherwise unforeseeable
          and beyond the participant’s control, such as a natural disaster, a
          strike, relocation of a spouse, or the nonrenewal or premature
          closing of a project or program, that make completing a term
          unreasonably difficult or impossible;
    (ii) Those that the Corporation, has for public policy reasons,
          determined as such, including:
    (A) Military service obligations;
    (B) Acceptance by a participant of an opportunity to make the transition
          from welfare to work; or
    (C) Acceptance of an employment opportunity by a participant serving
          in a program that includes in its approved objectives the promotion
          of employment among its participants.
    (6) Compelling personal circumstances do not include leaving a
          program:
    (i)   To enroll in school;
    (ii) To obtain employment, other than in moving from welfare to work or
          in leaving a program that includes in its approved objectives the
          promotion of employment among its participants; or
    (iii) Because of dissatisfaction with the program.

         *        *      *        *

   (b)       Release for cause.


                                       2
           (1)       A release for cause encompasses any circumstances other than
                     compelling personal circumstances that warrant an individual’s
                     release from completing a term of service.

                 *        *       *      *

           (3)       A participant who is released for cause may not receive any portion
                     of the AmeriCorps education award or any other payment from the
                     National Service Trust.
           (4)       An individual who is released for cause must disclose that fact in
                     any subsequent applications to participate in an AmeriCorps
                     program. Failure to do so disqualifies the individual for an education
                     award, regardless of whether the individual completes a term of
                     service.


FINDING AND RECOMMENDATIONS

The WBRS record for compelling personal circumstances showed that the AmeriCorps
member:

       [W]as asked to withdraw from her program at Bank Street College therefore
       rendering her ineligible for the AmeriCorps program. We have a letter on file
       which asked for her withdrawl [sic] from the program. She has completed
       enough [service] to receive at least a partial award which we feel is due to her
       considering the 486 hours she has put in since September of 2006.

Bank Street provided the letter, which shows that compelling personal circumstances criteria
do not apply. The letter addressed to the member stated in part, “Bank Street’s strong
emphasis on fieldwork is not well suited to your abilities.” Additional details in the letter
address other specific member performance issues. Nothing in the letter supports release
from the program for compelling personal circumstances, as defined by the regulation, on
the part of the member and instead shows release for cause initiated by Bank Street.

We also reviewed the National Service Trust record in eSPAN, which showed that a
$1,275.75 partial education award (with no accrued interest award) was paid for the benefit
of the member on April 26, 2007.

We concluded that the written justification for compelling personal circumstances, which
allowed a $1,275.75 partial education award, does not meet the requirements of 45 C.F.R.
§ 2522.230(a)(5). As a result, we question $1,275.75 and recommend that the Corporation:

       1. Disallow and recoup $1,275.75, the amount of the education award paid April 26,
          2007, on behalf of the member.

       2. Revise the member’s official records to show that the member was released for
          cause in accordance with 45 C.F.R. § 2522.230(b) and notify the individual of this
          revision of the records so that the member has an opportunity to comply with
          45 C.F.R. § 2522.230(b)(4).


                                                  3
EXIT CONFERENCE

We discussed the contents of the draft report with the Corporation and the Commission at
an exit conference held by teleconference on March 6, 2008. Bank Street also attended by
teleconference. In addition, the OIG previously provided the results and details of our
review, including the Bank Street correspondence and the AmeriCorps member’s name, by
e-mail to the Director of Office of Grants Management on November 13, 2007. We have
issued this report to provide specific recommendations, and provide an opportunity for the
Corporation and the Commission to comment on the findings and recommendations.


COMMISSION RESPONSE

The Commission stated that it agreed with all findings and recommendations. The
Commission also plans to work with Bank Street to amend the official record for the member
to state that the member was released for cause. The Commission’s response to the draft
report is included in Appendix A.


CORPORATION RESPONSE

The Corporation concurred with our findings and recommendations. The Corporation is
working with the Commission to recoup funds from Bank Street and expects the member’s
official record to be corrected by mid-April 2008. The Corporation’s response to the draft
report is included in Appendix B.


OIG COMMENT

The Corporation’s and Commission’s planned actions satisfy the intent of our
recommendations.



This report is intended for the information and use of the OIG, Corporation management,
Commission, Bank Street, and the U.S. Congress. However, this report is a matter of public
record and its distribution is not limited.



/s/

Carol M. Bates
Assistant Inspector General for Audit
April 16, 2008




                                            4
                        APPENDIX A

New York State Commission on National and Community Service’s
                 Response to the Draft Report
                                  April 5, 2008


                                  Carol Bates
                                  Assistant Inspector General for Audit
                                  Office of Inspector General
                                  Corporation for National and Community Service
     New York State
                                  1201 New York Avenue, NW - Suite 830
            Office of             Washington, DC 20525
   Children & Family
            Services              Dear Ms. Bates:

                                  We want to thank you for this opportunity to respond to the recent OIG
                                  Report 08-XX – Titled: Review of Bank Street College of Education’s
         David A. Paterson        Justification for Compelling Personal Circumstances of AmeriCorps
                       Governor   Member. As you are aware, we take this matter very seriously, and will
                                  follow-up accordingly.
      Gladys Carrión, Esq.
                 Commissioner
                                  First, we want to acknowledge that we agree with all findings and
                                  recommendations. In this regard, the Bank Street program did not apply
                                  the appropriate criteria for compelling circumstances when they released
                                  the member in question during the 2006-07 program year.

                                  Because the member was inappropriately released for compelling reasons,
                                  we will work with Bank Street to amend the official record for this member.
                                  This official record will be changed to state that the member was released
                                  for cause; in this case, for failing to complete her obligation.
   Capital View Office Park

      52 Washington Street
                                  As you are aware, the Bank Street College program decided not to reapply
Rensselaer, NY 12144-2796         for funds a few years ago. They were an EAP program, and felt that the
                                  effort needed to successfully run the program was not worth the modest
                                  resources provided by the CNCS.

                                  This situation by Bank Street was an anomaly, in that they made an
                                  incorrect assessment of the situation and granted an inappropriate release
                                  for compelling reasons. However, we have monitoring systems in-place to
                                  protect us from such situations, but notwithstanding this, sometimes
                                  mistakes will happen.

                                  Once again, thank you for your prompt attention, and proper handling of
                                  this matter. Please feel free to contact Warren Hamilton from our office for
                                  any follow-up activities. He can be reached at (518) 402-3825, or at
                                  Warren.Hamilton@ocfs.state.ny.us.


                                  Sincerely,




                                  Mark J. Walter
 An Equal Opportunity Employer    Executive Director
                                  New York State Commission on National and Community Service
                 APPENDIX B

Corporation for National and Community Service’s
          Response to the Draft Report
